INS Escort of Criminal Aliens
Return
to the USDOJ/OIG Home Page
The INS Escort of Criminal Aliens
Report Number I-2001-005
June 2001
TABLE OF CONTENTS
EXECUTIVE DIGEST
INTRODUCTION
BACKGROUND
RESULTS OF THE INSPECTION
Conformance to the INS Escort Standard
Conclusions and Recommendations on Conformance
Deficiencies in the INS Escort Standard
Conclusions and Recommendations on Revisions
Ineffective Escort Coordination
Conclusions and Recommendations on Coordination
APPENDIX I Scope and Methodology
APPENDIX II The INS Enforcement Standard
APPENDIX III Management's Response to the Draft Report
APPENDIX IV Office of the Inspector General's Analysis of Management's Response